<html>
<title> - MONEY, GUNS, AND DRUGS: ARE U.S. INPUTS FUELING VIOLENCE ON THE U.S.- MEXICO BORDER?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
 MONEY, GUNS, AND DRUGS: ARE U.S. INPUTS FUELING VIOLENCE ON THE U.S.-
                             MEXICO BORDER?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 12, 2009

                               __________

                           Serial No. 111-54

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
57-215                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              TODD RUSSELL PLATTS, Pennsylvania
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                LYNN A. WESTMORELAND, Georgia
GERALD E. CONNOLLY, Virginia         PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   BRIAN P. BILBRAY, California
    Columbia                         JIM JORDAN, Ohio
PATRICK J. KENNEDY, Rhode Island     JEFF FLAKE, Arizona
DANNY K. DAVIS, Illinois             JEFF FORTENBERRY, Nebraska
CHRIS VAN HOLLEN, Maryland           JASON CHAFFETZ, Utah
HENRY CUELLAR, Texas                 AARON SCHOCK, Illinois
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------
------ ------
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         JEFF FLAKE, Arizona
PATRICK J. KENNEDY, Rhode Island     TODD RUSSELL PLATTS, Pennsylvania
CHRIS VAN HOLLEN, Maryland           DAN BURTON, Indiana
PAUL W. HODES, New Hampshire         JOHN L. MICA, Florida
CHRISTOPHER S. MURPHY, Connecticut   JOHN J. DUNCAN, Jr., Tennessee
PETER WELCH, Vermont                 MICHAEL R. TURNER, Ohio
BILL FOSTER, Illinois                LYNN A. WESTMORELAND, Georgia
STEVE DRIEHAUS, Ohio                 PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      JIM JORDAN, Ohio
HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska
DENNIS J. KUCINICH, Ohio
                     Andrew Wright, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 12, 2009...................................     1
Statement of:
    Selee, Andrew, Ph.D., director, Woodrow Wilson Center Mexico 
      Institute; Michael A. Braun, managing partner, Spectre 
      Group International, LLC, and former Assistant 
      Administrator/Chief of Operations, Drug Enforcement 
      Administration; Jonathan Paton, member, Arizona State 
      Senate; and Tom Diaz, senior policy analyst, Violence 
      Policy Center, and author, ``Making a Killing: The Business 
      of Guns in America''.......................................    19
        Braun, Michael A.........................................    29
        Diaz, Tom................................................    40
        Paton, Jonathan..........................................    38
        Selee, Andrew............................................    19
Letters, statements, etc., submitted for the record by:
    Braun, Michael A., managing partner, Spectre Group 
      International, LLC, and former Assistant Administrator/
      Chief of Operations, Drug Enforcement Administration, 
      prepared statement of......................................    31
    Diaz, Tom, senior policy analyst, Violence Policy Center, and 
      author, ``Making a Killing: The Business of Guns in 
      America'', prepared statement of...........................    43
    Selee, Andrew, Ph.D., director, Woodrow Wilson Center Mexico 
      Institute, prepared statement of...........................    24
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     5


 MONEY, GUNS, AND DRUGS: ARE U.S. INPUTS FUELING VIOLENCE ON THE U.S.-
                             MEXICO BORDER?

                              ----------                              


                        THURSDAY, MARCH 12, 2009

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Lynch, Cuellar, Kucinich, 
Flake, Burton, Mica, Duncan, McHenry, and Fortenberry.
    Staff present: Elliot Gillerman, clerk; Alex McKnight, 
State Department fellow; Andy Wright, counsel; Dave Turk, staff 
director; Jennifer Safavian, minority chief counsel for 
oversight and investigations; Frederick Hill, minority director 
of communications; Dan Blankenburg, minority director of 
outreach and senior advisor; Adam Fromm, minority chief clerk 
and Member liaison; Seamus Kraft, minority deputy press 
secretary; Tom Alexander, minority senior counsel; Mitchell 
Kominsky, minority counsel; Dr. Christopher Bright, minority 
senior professional staff member; and Glenn Sanders, minority 
Defense fellow.
    Mr. Tierney. Good morning. I want to thank all of our 
witnesses for being here this morning and my colleague from 
Arizona as well, other Members as they appear.
    This subcommittee has recently held a number of hearings on 
countries, chiefly Pakistan and Afghanistan, where terror runs 
rampant and our national security interests are generally 
perceived to be significant. Now I would like to paraphrase a 
brief introductory paragraph in a recent article printed in the 
Economist magazine. It says in recent months the people of a 
certain country have become inured to carefully choreographed 
spectacles of horror.
    Just before Christmas, the severed heads of eight soldiers 
were found dumped in plastic bags near a shopping center in the 
capital of a state. Last month another three were found in an 
icebox near a border community. The country's president states 
that, ``Organized crime is out of control.'' He has pitted 
450,000 army troops against the drug traffickers, but in 2008 
more than 6,200 people died in the country in drug related 
violence--more than twice the number killed in 2007. More than 
1,000 people have died so far in 2009. Troops and police have 
fought pitched battles against drug gangsters armed with rocket 
launchers, grenades, machine guns, and armor-piercing sniper 
rifles such as the Barrett .50.
    The article does not describe Pakistan or Afghanistan. It 
is a story about our neighbor to the south, Mexico, the world's 
12th largest economy, the U.S.' second biggest trading partner, 
and an important oil supplier. The former Drug Czar General 
Barry McCaffrey says the picture there is dangerous and a 
worsening situation that fundamentally threatens U.S. national 
security. Last month Homeland Security Secretary Janet 
Napolitano said, ``Mexico right now has issues of violence that 
are a different degree and level than we have seen before.'' 
Some, most notably President Calderon, dispute such a grim 
picture but few if any contest that matters are certainly 
serious.
    The Economist article notes that the drug industry is worth 
some $320 billion a year, a figure I note some of our witnesses 
agree with, and that the United States alone spends $40 billion 
each year trying to eliminate the supply of drugs. Attorney 
General Medina Mora is quoted in the article as noting that of 
107,000 gun shops in the United States, 12,000 are close to the 
Mexican border and their sales are much higher than average. 
``Thousands of automatic rifles are bought for export to 
Mexico, which is illegal.''
    Now, when they are talking about exporting rifles out 
there, they are talking about weapons such as the one we see on 
the table there. And they are firing ammunition, this is what 
we use when we are fighting, our troops are fighting in 
Afghanistan and Iraq. This is what the gangsters and drug 
people are using when they fight Mexican and U.S. police and 
national security people down along the border. In addition, 
cash is moving from America to Mexico.
    So today this Subcommittee on National Security and Foreign 
Affairs focuses on this increasingly urgent national security 
challenge, one that is not half way around the world but one 
that is quite literally at our doorstep, the increasing 
violence along the U.S.-Mexico border. And that violence is 
increasingly spilling over onto U.S. soil.
    The U.S. Justice Department called Mexican gangs the 
``biggest organized crime threat to the United States,'' noting 
that they operate in at least 230 U.S. cities and towns. 
Phoenix is now the U.S. capital of kidnappings with more than 
370 cases last year. The city of El Paso, TX sits a stone's 
throw away from Ciudad Juarez where more than 1,550 people were 
killed in drug wars last year.
    Border violence is receiving increased attention by the 
U.S. Government, including by a number of committees in this 
Congress. At those hearings, I am sure the Merida Initiative 
will be discussed along with other efforts by the United States 
to strengthen Mexican police and judicial institutions. I am 
sure questions will be asked about what the United States can 
do to ensure that this violence does not spread from south to 
north. I am sure there will be calls for our southern neighbors 
to get their house in order. But all of this is just one part 
of the equation.
    Today's hearing asks the central question: Are there laws 
and activities on the American side of the border fueling this 
violence in Mexico? According to the U.S. Bureau of Alcohol, 
Tobacco, Firearms, and Explosives, 90 percent of the guns 
confiscated in Mexican organized crime originated in the United 
States, 90 percent.
    And we are not just talking handguns and hunting rifles. 
William Newell, special agent in charge of the ATF station in 
Arizona noted, for example, ``eighteen months ago we saw a 
spike in .50 caliber machine guns heading south.'' According to 
those AFT statistics, more than 7,700 guns sold in America were 
traced to Mexico in 2008, twice the 3,300 recorded the previous 
year and more than triple the 2,100 traced the year before 
that.
    And how do Mexican cartels get the money to buy those guns? 
The Woodrow Wilson Center put it this way: ``Profits from drug 
sales in the United States pump roughly $15 billion to $25 
billion every year into illicit activities in Mexico.'' In 
short, U.S. drug use creates billions in illicit profits that 
are then used by Mexican cartels to buy U.S. guns. The profits 
and the guns, and drug precursors in some cases, find their way 
back across the border to Mexico and fuel the increasing 
violence.
    This is a vicious cycle that we simply must break. Our 
kids, our schools, and our neighborhoods are quite literally at 
stake. And U.S. national security and the stability of our 
southern neighbor also hangs in the balance.
    This subcommittee has conducted and will continue to 
conduct extensive oversight into the volatile situation in 
South Asia. But last month a Wall Street Journal article 
concluded: ``Much as Pakistan is fighting for survival against 
Islamic radicals, Mexico is waging a do-or-die battle with the 
world's most powerful drug cartels. The parallels between 
Pakistan and Mexico are strong enough that the United States 
military singled them out recently as the two countries where 
there is a risk the government could suffer a swift and 
catastrophic collapse.''
    Here are the words of our own U.S. military. They say: ``In 
terms of worst-case scenarios for the United States Joint 
Force, and indeed the world, two large and important states 
bear consideration for a rapid and sudden collapse, Pakistan 
and Mexico. The Mexican possibility may seem less likely but 
the government, its politicians, police, and judicial 
infrastructure are all under sustained assault and pressure by 
criminal gangs and drug cartels. How that internal conflict 
turns out over the next several years will have a major impact 
on the stability of the Mexican state. Any descent by Mexico 
into chaos would demand an American response based on the 
serious implications for homeland security alone.''
    As the Obama administration, the Congress, and the American 
people increasingly pay attention to the violence in Mexico, my 
hope is that we not only discuss the Merida Initiative and 
other efforts to help our southern neighbor, that we not only 
ask the Mexican Government to get its house in order, but that 
we also look inside our own borders. I hope that we look to our 
own drug consumption, to our own gun laws, and to our own anti-
money laundering initiatives and ask what more we can do, what 
more we can do on our side of the border.
    My hope is that this hearing will result in some concrete 
recommendations for the U.S. Congress to consider. We will hear 
from top experts who have examined and studied these issues. 
And we greatly appreciate all of their presence here today.
    U.S.-Mexico border violence can only be solved if we look 
at all parts of the equation, if we examine everything that is 
fueling the fire. Let us examine our gun laws. Let us explore 
ways to cut down on U.S. drug consumption. Let us ask if we 
need more resources to root out money laundering. The peace and 
well-being of both of our countries and both of our peoples 
depends upon it. And with that I yield to the ranking member, 
Mr. Flake, for his comments.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC] [TIFF OMITTED] T7215.001
    
    [GRAPHIC] [TIFF OMITTED] T7215.002
    
    [GRAPHIC] [TIFF OMITTED] T7215.003
    
    [GRAPHIC] [TIFF OMITTED] T7215.004
    
    [GRAPHIC] [TIFF OMITTED] T7215.005
    
    [GRAPHIC] [TIFF OMITTED] T7215.006
    
    [GRAPHIC] [TIFF OMITTED] T7215.007
    
    [GRAPHIC] [TIFF OMITTED] T7215.008
    
    [GRAPHIC] [TIFF OMITTED] T7215.009
    
    [GRAPHIC] [TIFF OMITTED] T7215.010
    
    [GRAPHIC] [TIFF OMITTED] T7215.011
    
    [GRAPHIC] [TIFF OMITTED] T7215.012
    
    Mr. Flake. Thank you, Mr. Chairman. As a Representative of 
a border state, this subject hits a little close to home. So I 
am glad that we have called this hearing and I look forward to 
hearing the witnesses.
    In recent years, Mexican towns bordering the United States 
have experienced exponential growth in violence. The fighting, 
chiefly the result of drug cartels warring with each other and 
the Mexican Government, has cost 7,000 Mexican lives this past 
year alone. President Calderon is making a concerted effort to 
quell the violence. It does not appear, however, that the 
hostility will cease in the near term. On the contrary, reports 
indicate that this violence may be spreading.
    Despite conflicting reports about how large these cartels 
actually are and whether the violence has already spilled into 
the United States, violence in Mexico is a serious issue that 
is ripe for this subcommittee's review. The purpose of this 
hearing is to examine ways in which the United States is 
fueling the violence. In other words, we are looking at ways, 
to explore ways, where we can be blamed.
    The witnesses will testify that America's insatiable 
appetite for drugs and accessibility with weapons are the 
source of the violence. While I agree that cross-border sales 
of guns and drugs play a part, I do not believe that stricter 
gun controls on Americans and public service announcements will 
solve the problem. Indeed, we need to open a discussion on a 
broader spectrum of ideas.
    First, the United States must focus on enforcing good laws 
on the books. In my home State of Arizona, it is illegal to 
directly or indirectly sell weapons to criminals, plain and 
simple. The same is true under Federal law. Instead of 
punishing law-abiding Americans with stricter controls, we need 
to punish those who break the law today.
    In fact, U.S. law enforcement has had tremendous success in 
this regard. This Tuesday, a senior Immigration and Customs 
Enforcement official testified before another congressional 
committee. She said that in the last 3\1/2\ years, ICE has made 
a concerted effort to focus on border security. In this period, 
the agency has made 4,830 arrests, and seized nearly 170,000 
pounds of drugs, and captured numerous weapons at or near the 
border. State operations are also working.
    Now, I believe that the enactment of comprehensive 
immigration reform would also make it easier for the legitimate 
movement of workers on a temporary basis as well as goods 
between the United States and Mexico. This would free law 
enforcement officials to focus their resources and to be more 
direct on the pressing crimes that potentially endanger our 
citizens.
    We must determine the extent to which U.S.-funded anti-drug 
programs are succeeding in Mexico. To date, we have spent 
billions on that effort.
    But instead of limiting the discussion to gun control and 
treatment programs, we must have a broad discussion of ideas. 
To that end, I have invited Arizona Senator Jonathan Paton to 
testify today. He has come a long way, and I appreciate that, 
with short notice. He is a seasoned legislator in Arizona and 
he is a life-long resident of Arizona. He is thoroughly 
familiar with these matters and a leader in promoting 
legislative solutions to the cross-border issues. Thus, Senator 
Paton provides a unique perspective about ways in which border 
States such as Arizona are tackling these important issues.
    We can agree that despite our best efforts to fight cartel 
operations on both sides of the border, violence has gotten 
worse. That said, serious dialog must take place between 
lawmakers and experts about real solutions that bolster 
security while protecting our rights. Anything less is 
counterproductive. Sadly, this hearing appears to be more of a 
discussion about stricter gun controls on Americans than it is 
about punishing those who break the law.
    In these discussions today, we need to take care to point 
out that Mexico is not a failed state as national rhetoric 
might suggest. I believe that such characterizations are 
unhelpful at a time when our friends are going through tough 
times. President Calderon has taken bold steps to rid his 
country of corruption. I applaud his efforts and wish him every 
success, and I think we all should.
    And I thank the chairman for holding this hearing. It has a 
great effect on my State of Arizona and also the security of 
the United States. And I look forward to the witnesses.
    Mr. Tierney. Thank you very much. This subcommittee will 
now receive testimony from the panelists before us today.
    As I mentioned in my remarks, there are other committees in 
this Congress that are, of course, looking at this matter from 
another perspective. People are dealing with the Merida 
Agreement, cooperation between the countries, and what other 
actions are taken on the national security/law enforcement 
side.
    This is a hearing on yet one more element and one view of 
something additionally that can be done in cooperation with 
Mexico. And it will be followed, we presume, by a hearing with 
some of the administration's people on what is actually being 
done and planned to be done by this administration.
    We are going to receive testimony from three individuals 
whose biographies I will read in brief right now, four 
individuals, I should say.
    Dr. Andrew Selee. Dr. Selee is the director of the Woodrow 
Wilson Center's Mexico Institute, which recently published a 
January 2009 report, ``The United States and Mexico: Toward a 
Strategic Partnership.'' Dr. Selee is an adjunct professor of 
government at Johns Hopkins University and previously taught at 
George Washington University. He serves on the board of the 
U.S.-Mexico Fulbright Commission and on the Independent Task 
Force on Immigration of the Council on Foreign Relations. And I 
am happy to note that he has also worked as a professional 
staff member here in the U.S. House of Representatives 
previously.
    Mr. Michael A. Braun is the managing partner at Spectre 
Group International and is a former Drug Enforcement Agency 
Chief of Operations and Assistant Administrator. As such, he 
was responsible for leading the worldwide drug enforcement 
operations of the Agency's 227 domestic and 86 foreign offices. 
In June 2003, Mr. Braun was detailed to the Department of 
Defense and served on special assignment in Iraq as the chief 
of staff of the Interim Ministry of Interior. Mr. Braun has 
also served from 1971 to 1973 as an infantryman in the U.S. 
Marine Corps.
    Mr. Jonathan Paton is a member of the Arizona State Senate. 
He founded a political consulting firm in Tucson called Paton 
and Associates and has worked with numerous clients in State 
and local races as well as on initiative campaigns. He also 
volunteered for active duty in support of Operation Iraqi 
Freedom from September 2006 until February 2007.
    Mr. Tom Diaz is a senior policy analyst for the Violence 
Policy Center and is author of ``Making a Killing: The Business 
of Guns in America.'' His new book ``No Boundaries: 
Transnational Latino Gangs and American Law Enforcement'' will 
be released later this year. Mr. Diaz has a distinguished past 
including having consulted with the Justice Department and 
having also worked in the House of Representatives as counsel 
to the Judiciary Committee's Subcommittee on Crime and Criminal 
Justice.
    I want to thank all of you for making yourselves available 
today. Mr. Paton, thank you for your travels at the last minute 
and for sharing your substantial expertise.
    It is the practice of this subcommittee to swear in all the 
witnesses. So at this time I ask you to please rise, raise your 
right hands.
    [Witnesses sworn.]
    Mr. Tierney. Thank you. The record will please indicate 
that all of the witnesses answered in the affirmative. All of 
your written statements, which have been introduced and read by 
the Members already, will be put on the record in their 
entirety.
    So I welcome you to give whatever oral remarks you want to 
give. We try to limit it within 5 minutes, if possible. We 
don't have a trap door to make you disappear if it doesn't 
happen that way. But we do like to keep it as close to 5 
minutes as possible so Members will have an opportunity to 
engage and ask questions and get more information in that 
respect.
    So if we can, Dr. Andrew Selee, we appreciate your 
comments.

  STATEMENTS OF ANDREW SELEE, PH.D., DIRECTOR, WOODROW WILSON 
 CENTER MEXICO INSTITUTE; MICHAEL A. BRAUN, MANAGING PARTNER, 
    SPECTRE GROUP INTERNATIONAL, LLC, AND FORMER ASSISTANT 
      ADMINISTRATOR/CHIEF OF OPERATIONS, DRUG ENFORCEMENT 
 ADMINISTRATION; JONATHAN PATON, MEMBER, ARIZONA STATE SENATE; 
 AND TOM DIAZ, SENIOR POLICY ANALYST, VIOLENCE POLICY CENTER, 
 AND AUTHOR, MAKING A KILLING: THE BUSINESS OF GUNS IN AMERICA

                   STATEMENT OF ANDREW SELEE

    Dr. Selee. Thank you, Mr. Chairman, for the opportunity to 
testify before this subcommittee. And thank you also for 
choosing a subject that is both timely and an approach that I 
think is very constructive. And let me also, if I can, 
recognize the ranking member as someone who has taken a 
courageous stand on a number of issues including immigration, 
which you referenced in your remarks as well.
    The issue of organized crime tied to drug trafficking in 
Mexico is timely. We have seen in the past year over 6,000 
deaths tied to drug trafficking in Mexico. This is something 
that grabs headlines. It is something that is raising concerns 
on both sides of the border. Granted, much of the killing is 
going on in three cities in Mexico. A majority of killings are 
going on and a majority of the killings are taking place among 
people involved in drug gangs.
    But the deeper issue that is going on is the presence of 
organized crime undermining rule of law in Mexico. And that is 
something that is very hard for a democratic society to 
tolerate. It is something that is of great concern to Mexicans. 
The Mexican Government has accurately defined this as the 
country's greatest threat, and they have taken a valiant stance 
against organized crime while also trying to strengthen police 
and judicial institutions in Mexico. And I would argue that is 
probably the longest term challenge in Mexico, is creating 
judicial institutions and police forces that will really have 
credibility with citizens.
    This issue is particularly constructive the way that it has 
been designed by this committee and by the chairman because 
Mexico matters to the United States. And this issue, 
particularly, in Mexico matters to the United States not just 
because Mexico is our neighbor, which we have talked about.
    There is no question when something happens of this 
magnitude in a neighboring country, clearly it is important. We 
have a 2,000 mile border together. It is not merely important 
because Mexico is a strategic partner in the hemisphere, which 
they are. It is our second largest market for exports. It is a 
partner in a number of endeavors that we have around the world. 
But it matters also because this is an issue where we are 
deeply implicated, in which we are both deeply involved.
    Organized crime does not know boundaries. Drug trafficking 
is an issue that is bi-national and, indeed, multi-national. 
Drug trafficking organizations in Mexico are nurtured by the 
appetite for narcotics on this side of the border, as the 
chairman has noted. U.S. drug sales account for as much as $10 
billion to $25 billion each year that is sent back to Mexico to 
fuel violence and to support the cartels. Some of these 
proceeds are additionally used to buy weapons for drug 
trafficking organizations, usually in U.S. gun shows and gun 
shops.
    And so when we see the violence across the border and its 
deeper consequences for democracy and rule of law in Mexico, 
one of the things we need to recognize is that our country 
houses those who knowingly and many times unknowingly finance 
and equip organized crime organizations that are behind it. And 
that means we also hold the key to at least part of the 
solution for this problem. Clearly much of the work needs to be 
done in Mexico, but clearly we are implicated as well. And 
there is much we can do to be supportive, and that we should be 
doing.
    Fortunately, law enforcement cooperation between the 
governments of the United States and Mexico has increased 
significantly in recent years. We are now able to track and 
apprehend some of the worst criminals involved in the drug 
trade as they move from one country to another, and to share 
timely intelligence that helps disrupt the operations of drug 
trafficking organizations.
    This was not necessarily true 10 years ago. There is a 
degree of cooperation that I think we would not have been 
talking about if we had this discussion 10 years ago. The 
approval by Congress of the Merida Initiative last year has 
further deepened this cooperation by strengthening contacts and 
building trust between the governments to address this common 
threat together.
    However, the most important efforts that the U.S. 
Government could take to undermine the reach and violence of 
these drug trafficking organizations need to be taken on this 
side of the border. And I want to underscore that. Though there 
is much we can do--the Merida Initiative is important; there is 
much we can do to help Mexico--the ways we can be most helpful 
are things we can do here that we will be talking about on this 
panel. There are three sets of actions that we could pursue 
more energetically that would be especially vital to 
undermining the cartels. And they are all things that we are 
doing now, but that we could be doing slightly differently and 
much more energetically.
    All of these actions are in our national security interests 
because they will help stabilize the situation in Mexico and 
prevent any spillover into the United States. But they are also 
good domestic policy because they would make our communities in 
the United States safer and more secure.
    And I want to make reference to three things that come out 
of this report. The chairman has already referenced it, ``The 
United States and Mexico: Toward a Strategic Partnership.'' We 
put it together with 100 specialists from the United States and 
Mexico over the past year. And so these ideas as much belong to 
other people as to me, but I will try and represent them here, 
the three points.
    First, we can do a lot more to reduce the consumption of 
drugs in the United States. Demand for narcotics in this 
country is what drives the drug trade elsewhere in the 
hemisphere, including Mexico. There is no magic bullet to do 
this. I mean, as much as we can say this, there is not a single 
strategy that is effective in doing this alone.
    And I also do not claim to be an expert on prevention and 
treatment of addictions. Other people know this better than I 
do. However, even a cursory look at recent Federal expenditures 
on narcotics show that we have increasingly emphasized supply 
reduction/interdiction while scaling down our commitment to 
lowering the consumption in the United States.
    Available research suggests that investing in the treatment 
of drug addictions may actually be the most cost-effective way 
to drive down the profits that drug trafficking organizations 
get from their business by reducing the potential market. I 
think it is positive to hear that the new director-designate of 
ONDCP is also thinking along these lines, also talking about 
things like alternative sentencing for first time nonviolent 
offenders. These are the kinds of things that should be on the 
table for discussion.
    And although many drug prevention programs have marginal 
effects on usage--which, to be honest, a lot of the things that 
have been tried in the past to keep people out of drugs have 
not always worked as well as they should--there is a lot that 
we can learn from very successful campaigns recently against 
tobacco use, which have been very effective. And it suggests 
that this is a good time to take that knowledge and invest it 
actively in prevention once again.
    We cannot eliminate drug use or addictions. But it is worth 
making a concerted effort to drive down demand, not only for 
public health reasons, which would be enough, of course, but 
also because it hurts the bottom line of criminal 
organizations.
    Second, we can do much more to disrupt the $10 billion to 
$25 billion that flow from drug sales in U.S. cities back to 
drug trafficking organizations in Mexico and fuel the violence 
that we are seeing. The Treasury and Justice Departments have 
done a great job of making it difficult to launder money in 
financial institutions.
    However, the drug trafficking organizations have now turned 
to shipments of bulk cash, which have become the preferred way 
of getting their profits back across the border. Currently, no 
single agency is fully tasked with following the money trail in 
the way the agencies are tasked with pursuing the drugs 
themselves. CBP, ICE, DEA, FBI, Treasury, and local law 
enforcement are all part of this effort currently but are all 
primarily tasked with other responsibilities.
    It is worth noting that it is both impractical and 
undesirable to try to stop this flow only at the border, 
something the ranking member will appreciate. Massive sweeps of 
cars exiting the United States for Mexico would disrupt the 
economic linkages between the border cities and probably yield 
few gains since much of the cash is divided up and taken across 
the border in small amounts.
    The real challenge is developing intelligence capabilities 
to detect the flow of money as it is transported from one point 
to another in the United States as cash or when it enters 
financial institutions as money transfers, foreign exchange 
purchases, and bank deposits. We are much better at the second 
than at the first. There are recent experiences in pursuing 
terrorist financing that may be useful models for similar 
efforts to pursue the finances of drug traffickers.
    And third and finally, we can do much more to limit the 
flow of high caliber weapons from the United States to Mexico. 
And you will hear from Tom Diaz on this much more eloquently 
than I can say it. But most of the high caliber weapons, 
probably more than 90 percent, that are used by drug 
trafficking organizations are purchased in the United States 
and exported illegally to Mexico.
    The first thing that is vital to do is to increase the 
number of ATF inspectors at the border and to strengthen 
cooperation with other law enforcement agencies which often 
have relevant intelligence on this. The current prosecution by 
Arizona's attorney general of a gun dealer who is knowingly 
selling arms to drug trafficking organizations is a powerful 
precedent, but it is only a first step. It shows the State of 
Arizona is taking this very seriously, but clearly this is 
something that needs a range of agencies to be supporting the 
AFT and local law enforcement.
    The Obama administration could also limit criminals' access 
to inexpensive assault weapons by restricting importation to 
the United States of some of the high caliber guns currently 
favored by traffickers, which has driven down their price in 
the market. There is much we can do to limit the access that 
criminals' now have to high powered weapons without violating 
the spirit of the second amendment or harming legitimate 
interests of American hunters and gun enthusiasts.
    Mr. Tierney. Thank you. Mr. Selee, I am going to stop you 
there only because I know the rest is just a windup.
    Dr. Selee. Yes, exactly.
    Mr. Tierney. And I hope you are aware that I appreciate 
that.
    Dr. Selee. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Selee follows:]

    [GRAPHIC] [TIFF OMITTED] T7215.013
    
    [GRAPHIC] [TIFF OMITTED] T7215.014
    
    [GRAPHIC] [TIFF OMITTED] T7215.015
    
    [GRAPHIC] [TIFF OMITTED] T7215.016
    
    [GRAPHIC] [TIFF OMITTED] T7215.017
    
    Mr. Tierney. And thank you for your comments.
    We are going to go, if we can, to Mr. Braun. And you are 
recognized, sir.

                 STATEMENT OF MICHAEL A. BRAUN

    Mr. Braun. Good morning Chairman Tierney, Ranking Member 
Flake, other distinguished Members and staff. It is an honor 
for me to be here this morning.
    Although I entered the private sector on November 1st, I 
spent 34 years in law enforcement, the last four of which were 
as the Chief of Operations with DEA. As you know, DEA, ICE, FBI 
have a lot of folks that are serving, a lot of employees that 
are serving in Mexico, working shoulder to shoulder with our 
counterparts.
    And I lost a lot of sleep over the last 3 or 4 years as the 
violence began to unfold and escalate throughout Mexico. And I 
appreciate your interest in this subject. What I hope to do 
today is answer three questions: What is really going on in 
Mexico? What is causing it and what is behind it? And then 
finally, and I think most importantly, can Mexico win?
    What is going on? There is a real drug war playing out in 
Mexico. You mentioned some of the numbers earlier. They are 
appalling--over 6,000 homicides this past year. 530 law 
enforcement officers, Mexican law enforcement officers, were 
murdered in the line of duty in Mexico last year. 493 of those 
were drug related homicides. For God's sakes, over 200 
beheadings, many of those with messages attached--messages, 
notes scribbled on paper stuffed in the mouths of those victims 
or carved in the foreheads--basically warning police that they 
needed to show more respect to the traffickers.
    But what is really behind it? The cartels responsible in 
Mexico for this violence were finally swept up in the perfect 
storm beginning about 4 years ago. They began, which is not 
untypical, it has happened many times in the past, but there 
were some turf wars that flared up in various regions 
throughout the country as they began fighting and vying for 
lucrative plazas or lanes across our southwest border.
    About 2 years ago, shortly after President Calderon took 
office, he initiated his campaign to break the backs of the 
cartels. I believe that not long after he took office, or 
possibly even before, he and his advisors, security advisors, 
determined very quickly that if they didn't take on the cartels 
in a meaningful way, they were going to lose control of the 
country, that the country was literally spiraling out of 
control.
    So that added even more pressure to the traffickers. They 
are fighting amongst themselves. Now they have the government 
on their backs and the government is relentless taking the 
fight to them in a large way with over 45,000 military troops 
supplementing the ranks of Federal law enforcement, local and 
State law enforcement. It is a real fight going on.
    About 5 years ago, DEA initiated what we refer to as the 
Financial Attack Strategy. We began reverse engineering every 
one of our cases. We did well for many years following the 
drugs, but we mandated that agents reverse engineer every one 
of their cases and begin following the money to tremendous 
benefits. In 2007, I don't have the 2008 figures for you, but 
in 2007 the DEA seized about $500 million in cash that was 
destined for the southwest border. Of over $900 million cash 
seized globally that year, much of it was tied to Mexican drug 
trafficking organizations, adding more pressure on these 
cartels.
    Another strategy that was employed almost simultaneously 
was the Drug Flow Attack Strategy, working very closely with 
Admiral Jim Stavridis at SOUTHCOM, Vice Admiral Joe Nimmich at 
JIATF/South. We started attacking the soft underbelly of the 
transportation infrastructure within these organizations and 
brought every possible piece of equipment to bear against these 
groups as they moved their drugs north. Consequently, enormous 
amounts of drugs have been seized over the last 3 years behind 
that strategy. So when you add that revenue denied in, now we 
are up to somewhere between $3.5 billion to $4 billion that we 
are denying these guys.
    All of this has caused the Mexican cartels to incur a great 
deal of debt with the Colombian cartels that are providing all 
of the cocaine to them that they are now responsible for 
trafficking into the United States. And the Colombian cartels 
basically over the past year have denied time and time again 
drugs on consignment. They are now demanding money. The bottom 
line is the cartels in Mexico have never experienced this level 
of persistent, sustained pressure. It is well into its 4th year 
now and really, in a meaningful way, the last 2 years.
    So the question is can Mexico win? There is no doubt Mexico 
can win. And I use Colombia as an example thanks to you and 
your colleagues through sufficient funding to Colombia. You 
know, Colombia just a few years ago was facing the same levels 
of violence in that country that Mexico is facing today. With 
funding from the United States and expert advisors that are 
working with our Colombian counterparts, they have turned the 
tide. If you look at what has happened to Colombia in the last 
3 years, their numbers of all their indexed violent crimes have 
plummeted: their kidnappings for ransom, their homicides, their 
home invasions, their armed robberies. It is a success story.
    There is still a great deal of drugs flowing out of 
Colombia. Quite frankly, it hasn't slowed down one single bit. 
But the truth of the matter is, in Colombia, the government now 
has solid control of that country. And I am convinced that the 
Mexicans can experience the same thing if they don't throw in 
the towel, if they hang in and continue to fight.
    Thank you.
    [The prepared statement of Mr. Braun follows:]

    [GRAPHIC] [TIFF OMITTED] T7215.018
    
    [GRAPHIC] [TIFF OMITTED] T7215.019
    
    [GRAPHIC] [TIFF OMITTED] T7215.020
    
    [GRAPHIC] [TIFF OMITTED] T7215.021
    
    [GRAPHIC] [TIFF OMITTED] T7215.022
    
    [GRAPHIC] [TIFF OMITTED] T7215.023
    
    [GRAPHIC] [TIFF OMITTED] T7215.024
    
    Mr. Tierney. Thank you, Mr. Braun. Senator Paton.

                  STATEMENT OF JONATHAN PATON

    Mr. Paton. Thank you, Mr. Chairman and members of the 
committee. I want to thank you for inviting me today and a 
special thanks to Congressman Flake for having me come here 
today.
    Besides being in the State Senate, I am also the chairman 
of the Arizona Senate Judiciary Committee. I represent the 
Tucson sector, which is considered to be the most trafficked 
portion of the border with Mexico. I represent that I-19 
corridor in east Tucson, Green Valley, and Sierra Vista.
    When Congress began sending us more Border Patrol agents 
and customs officers to Arizona, it helped slow some of the 
illegal immigration activity. But unwittingly, however, it also 
created a backlog of Federal immigration cases. Those 
immigration cases quadrupled. And what that means is that ATF, 
which has been diligently investigating gun related crimes 
which are already on the books such as straw purchases and gun 
smuggling into Mexico, has been unable to bring many of those 
cases forward.
    The U.S. Attorney's Office is swamped with misdemeanor 
immigration cases. And there are not enough prosecutors, 
judges, agents, and jails to handle what is coming before them 
already. How can we expect them to handle new laws? The bottom 
line is, in the words of a Federal agent that I spoke to this 
past week in Arizona, the U.S. Federal court system in Arizona 
is crumbling. And new laws will hasten that process, not help 
it.
    The solution? Give us more agents, more prosecutors, more 
jail cells, public defenders. In short, give us the 
infrastructure to handle the problem. The laws on the books can 
be investigated and prosecuted. We can go after gun related 
crimes now that are seriously impacting Mexico's gun problem. 
Besides the fact that the actions being taken by gun smugglers 
are already illegal, many of the weapons themselves are illegal 
as well.
    I wasn't able to bring my own prop today because I couldn't 
make it through the airport with it. But had I done so, I would 
have brought grenades that were produced in South Korea; I 
would have brought AK-47s; I would have brought M-16s. These 
are weapons, ammunitions that are already illegal in the United 
States that are being smuggled into Mexico from outside of 
Mexico.
    Mexico's gun problem is primarily a Mexican border security 
problem. Let me describe to you the process to get into the 
United States from Mexico. You go through a long line at the 
port of entry in Nogales. You wait in that line. Finally a 
customs official meets you. He talks to you, looks at your car, 
looks at the sides of the vehicle, etc. Finally, you get 
through. You go all the way through that checkpoint and 20 
miles up the road at I-19 you have to go through another border 
checkpoint with the Border Patrol.
    In order to get into Mexico, I go down to Nogales, I park 
at a McDonald's, and I walk through a turnstile. Essentially, 
we have an entire border security infrastructure on our side of 
the border and they have the same technology that you would use 
to get in to see your local movie at your movie theater. Mexico 
needs to have their own similar infrastructure that mirrors the 
United States as much as possible.
    And the reason I bring this up is that the smuggling 
problem in the United States, our people smuggling problem, is 
their gun smuggling problem. The same people that are bringing 
people and drugs into the United States are the same ones that 
are bringing cash and guns into Mexico. This ultimately means 
that we need to focus on our own border security problems not 
only to guard against those entering the United States 
illegally, but to interdict those going into Mexico. As long as 
traffickers can move freely into the United States, they can 
easily go back into Mexico as well.
    To show how interrelated this problem is, I just want to 
refer to the auto theft problem in Arizona as a perfect 
example. Auto theft in Arizona is one of the biggest per capita 
crimes for auto theft in the United States. We are finding that 
a lot of these cars were going south of the border into Mexico, 
so much so that the attorney general in Sonora called our 
attorney general and said, you know, we've got all these cars 
littering our roadsides that are abandoned from the United 
States, from your State. We'd like to get records on them to 
repatriate them back to the United States.
    And the reason why is that the Mexicans would steal the 
cars in the United States, they would use them to haul drugs or 
haul cash and guns into Mexico. They didn't do this because 
they liked the American cars. They used them simply as 
transport for their own smuggling operations back into Mexico, 
whereupon they would simply leave them there.
    If you want to know what we can do, we can increase the 
license plate readers on I-19 that go into Mexico, as an 
example. When they did that, they found that a lot of these 
cars were stolen. They were able to stop them at the border and 
when they looked at the cars, they found money and they found 
guns inside those cars. The other thing we can do is look at 
comprehensive immigration reform as has been advocated by 
Congressman Flake, which will allow us to focus on the real 
problem at hand, which is the smugglers and not the people that 
are trying to find gainful employment in the United States.
    I sit on the Counsel of State Governments Border 
Legislative Conference and I recently returned from Tampico, 
Tamaulipas Mexico last weekend. The Mexican Government is 
undergoing a complete and total transformation of their 
judicial system. They are going from their present system into 
an adversarial system of justice like we have in the United 
States with a prosecution and a defense. And this means that 
they will be following the rules of evidence and criminal 
procedure.
    And as they do that, they will need corresponding crime 
labs, ballistics tests, etc., that we use in the United States. 
The United States is uniquely situated to train emerging 
leaders in Mexico's nascent justice system on forensic science. 
These efforts will pay off not only in terms of giving the 
Mexicans the ability to go after gun traffickers in their own 
country, but more importantly, it will give us access to those 
data bases and intelligence of who these people are that we can 
use.
    Criminal cartels do not respect borders. They simply use 
these borders as a sanctuary from one government over the 
other. And they game that system in order to continue their 
trade. I want to close by telling you this story. I recently 
had a chance to visit a drop house in Phoenix. And you will 
notice that it is a drop house in the neighborhood simply 
because it is the only place on the block that has razor wire 
around the perimeter of the fence. Having visited one, I would 
have to say that it is the modern, land-borne equivalent to a 
slave ship. Forty people are shackled in a room big enough to 
be a child's bed chamber. They sit naked on the floor so they 
can't run away. The room next door is a room used to torture 
and rape Mexican citizens to extort more money from them.
    This is not a drop house problem, however, it is not a drug 
problem and it is not a gun problem. It a fundamentally a 
border security problem. Both America and Mexico must secure 
the southern border. And to do that, we need to enforce our 
existing gun and immigration laws. We need to provide a 
workable guest worker program. We need to give our law 
enforcement the resources to effectively prosecute existing gun 
laws. Finally, we need to help Mexico develop a criminal 
justice system that follows the rule of law.
    Thank you very much.
    Mr. Tierney. Thank you, Senator.
    Mr. Diaz.

                     STATEMENT OF TOM DIAZ

    Mr. Diaz. Thank you, Mr. Chairman and other members of the 
committee for allowing me to present the views of the Violence 
Policy Center, which is a nonprofit, nonpartisan group working 
to reduce the effects of gun violence in America. The hearing 
today posed the question, Money, Guns, and Drugs: Are U.S. 
Inputs Fueling Violence on the U.S.-Mexico Border? And I think 
the testimony of the witnesses who preceded me indicate that 
the short answer to that question is yes.
    Firearms from the U.S. civilian gun market are fueling 
violence on both sides of our border with Mexico. If one wanted 
to design a system to pour military-style guns into criminal 
hands, it would be hard to find a better one than the U.S. 
civilian gun market. The only better way would be openly 
selling guns to criminals from the loading docks of 
manufacturers and importers.
    The U.S. gun market doesn't just make gun trafficking in 
military-style weapons to drug cartels and their criminal 
associates, including criminal street gangs in the United 
States, it doesn't just make trafficking in military-style 
weapons to them easy. It practically compels that traffic. Lax 
regulation of the U.S. gun market and the gun industry's 
ruthless design choices fit like gloves on the bloody hands of 
the drug lords and their criminal gang associates.
    The results are beyond debate. In February 2008, ATF 
Assistant Director William J. Hoover told another subcommittee, 
the Western Hemisphere Subcommittee in the House Foreign 
Affairs Committee, and I am quoting excerpts from his 
testimony, ``Mexican drug trafficking organizations have 
aggressively turned to the U.S. as a source of firearms. The 
weapons sought by drug trafficking organizations have become 
increasingly higher quality and more powerful. These include 
the Barrett .50 caliber rifle, the Colt AR-15 assault rifle, 
the AK-47 assault rifle and its variants, and the FN 5.57 
caliber millimeter pistols known better in Mexico as the `mata 
policia' or the `cop killer'.''
    It is not a coincidence that gun smugglers come to the 
United States for these military-style weapons. Guns like these 
are so easily available in such quantity that today they 
actually define the civilian gun market in America.
    I would like to talk a little bit about regulation. The gun 
lobby and its advocates often say that the gun industry is 
heavily regulated. In fact, the gun industry in the United 
States is lightly regulated. The most important Federal burdens 
on the gun industry are exercises in mere paper oversight, pro 
forma licensing, and rare inspections.
    Most States do not regulate dealers at all. The few that do 
rarely conduct regular inspections. In fact, ATF rarely 
conducts regular inspections. Gun sales themselves are subject 
only to the cursory background check under the Federal Brady 
Law. And that is only required when the sale is made through a 
federally licensed gun dealer. We know, however, that 40 
percent of all gun transfers in the United States, 40 percent, 
are made through what is known as the informal market. That is 
not through a federally licensed dealers, over the back fence, 
through the newspaper.
    The major weakness of the U.S. effort against gun 
trafficking is its total reliance on after the fact law 
enforcement action. If, as some claim, traffickers indeed use a 
stream of ants to move guns to Mexico, it would seem to be more 
effective to make it more difficult for the ants to get the 
guns in the first place. That means looking upstream. And if we 
are going to have a broad discussion of ideas, that is an idea 
we suggest. Look upstream to the gun industry to find ways to 
keep guns out of the hands of traffickers and their agents 
before they break the law.
    Now I have made reference to the military-style designs 
that today define the gun industry, the American civilian gun 
industry. The U.S. gun industry has been in serious economic 
trouble for decades. We at the Violence Policy Center have 
written about that at length and I wrote the book, ``Making a 
Killing,'' about it. As the gun business publication, 
``Shooting Industry,'' which is an industry publication put it, 
``More and more guns are being purchased by fewer and fewer 
consumers. In short, the markets are stagnant.''
    The industry's principal way to jolt its weak markets has 
been to heavily push increasingly lethal gun designs to hook 
jaded gun buyers into coming back again to purchase something 
that is essentially utilitarian and never wears out. Because of 
these design and marketing decisions, the gun industry today is 
defined by military-style weaponry. Another industry 
publication, The New Firearms Business, wrote recently, ``The 
sole bright spot in the industry right now is the tactical end 
of the market where AR and AK pattern rifles and high tech 
designs are in incredibly high demand.''
    Now one effective thing that could be done today without 
legislation, without new gun laws would be for President Obama 
and Attorney General Eric Holder to direct the Bureau of 
Alcohol, Tobacco, and Firearms to strictly enforce its existing 
statutory authority to exclude from importation all semi-
automatic assault rifles as non-sporting weapons pursuant to 18 
U.S.C. 925(d)(3). That is a provision of the 1968 Gun Control 
Act. It has been on the book for 40 years.
    I might point out that President George Herbert Walker Bush 
was the first president to use that provision to restrict the 
import of certain types of assault weapons and that President 
Clinton expanded that approach during his term. The latter 
President Bush, George W. Bush, under his administration, the 
ATF has apparently weakened this to allow the import of 
firearms like the type on page 2 of my submitted statement: 
semi-automatic rifles and assault rifles seized in a gun 
smuggling case by ICE or from Romanian imports known as WASRs.
    This strict approach would stop the flow of assault weapons 
from countries like Romania. Many of those weapons move into 
criminal hands in the United States--the same WASR-type gun has 
been used to kill U.S. law enforcement in Miami and elsewhere--
and then across the border to Mexican cartels. This restriction 
could also be applied to other dangerous non-sporting firearms 
such as the FN 5.7 handgun, the 5.7 millimeter handgun 
specifically designed in Europe for use by counter-terror units 
against terrorists wearing body armor, now freely marketed in 
the United States and known in Mexico as a ``mata policia'' or 
the ``cop killer.''
    Thank you, Mr. Chairman. I am happy to answer any 
questions.
    [The prepared statement of Mr. Diaz follows:]

    [GRAPHIC] [TIFF OMITTED] T7215.025
    
    [GRAPHIC] [TIFF OMITTED] T7215.026
    
    [GRAPHIC] [TIFF OMITTED] T7215.027
    
    [GRAPHIC] [TIFF OMITTED] T7215.028
    
    [GRAPHIC] [TIFF OMITTED] T7215.029
    
    [GRAPHIC] [TIFF OMITTED] T7215.030
    
    [GRAPHIC] [TIFF OMITTED] T7215.031
    
    [GRAPHIC] [TIFF OMITTED] T7215.032
    
    [GRAPHIC] [TIFF OMITTED] T7215.033
    
    [GRAPHIC] [TIFF OMITTED] T7215.034
    
    [GRAPHIC] [TIFF OMITTED] T7215.035
    
    [GRAPHIC] [TIFF OMITTED] T7215.036
    
    [GRAPHIC] [TIFF OMITTED] T7215.037
    
    [GRAPHIC] [TIFF OMITTED] T7215.038
    
    Mr. Tierney. Thank you, Mr. Diaz. Thanks to all of the 
witnesses for your testimony.
    We are going to now engage in the question and answer 
period, about 5 minutes per Member. And we will do as many 
rounds as we can all tolerate and you have time for as 
witnesses.
    On that, let me begin by asking about the money on this 
because I think Mr. Braun mentioned follow the money. As a way 
that people generally think of this, $8 billion to $25 billion 
of bulk money traveling, I suspect, throughout the United 
States first before it then goes over to fuel this situation.
    When many of us think of money laundering, we think of 
electronic wires and of a lot of work that Senator Kerry and 
others did years ago about the banking system. And I hear what 
you are telling us today is that now, to counteract all of the 
advances made there, they are just going back to cold cash and 
trying to bring that over.
    So I have a number of questions. One is are they doing that 
in much the same way as people say they are carrying the guns 
over, an army of ants a little bit at a time, or are they 
bringing it over in huge truckloads? Mr. Braun.
    Mr. Braun. It will be a bunch of smugglers here on both 
sides of the border. There are Mexican money laundering or 
financial cells that collect remittances from distribution 
cells all over the United States. They oftentimes cache that 
money in places like Atlanta, Chicago, hubs where they pull 
that money into. They will repackage it, conceal it in 
vehicles, in vans, in automobiles.
    Sometimes they won't conceal it at all. Sometimes they will 
simply stuff duffel bags full of money and send it south toward 
the border. Oftentimes, though, that money, once it reaches the 
southwest border of the United States in places like El Paso 
and Del Rio and places in Arizona, all along the southwest 
border, oftentimes it will be cached in homes, safe houses, for 
the final count before it is moved across the border.
    But as the Chief of Operations with DEA, just to kind of 
put this into perfect perspective, every morning I started with 
an 8:30 command meeting in our command center and was briefed 
on what had taken place during the previous 24 hours. There was 
never a week in the 4-years that I served as Chief of 
Operations that I can remember when there were not a number of 
million dollar, multi-million dollar cash seizures throughout 
the United States. DEA, ICE, and FBI just took down Operation 
Accelerator. You probably heard about it a few weeks ago. Over 
$63 million, mostly in cash, was seized in that investigation.
    One thing that I would like to mention is that many of the 
seizures that are made are generated by judicial wiretaps that 
DEA is conducting across the United States involving tremendous 
forms of evidence gathering ability as well as intelligence 
gathering. But Federal law enforcement is struggling with what 
I believe to be some antiquated legislation and policies that 
deal with Federal law enforcement's ability to conduct judicial 
wiretaps. I am not talking about the FBI FISA-type stuff. But 
with the ever-emerging technologies, the FBI, DEA, we are 
having a tough time keeping up with all of this and staying up 
on the phones that we need to be on.
    Mr. Tierney. Thank you. We will explore that further when 
we have the administration witnesses in as to what we might do 
with regard to that. But Mr. Selee was suggesting about this 
upstream activity that we had to improve the capabilities and 
intelligence on matters on the law enforcement side.
    But you also mentioned, Mr. Selee, that right now the 
Border Patrol, ICE, Drug Enforcement Agency, FBI, and Treasury 
all have a piece of this action. Your recommendation was that 
somebody be put in charge, somebody be tasked with actually 
coordinating all of that. Who would you or Mr. Braun recommend 
be that person or that agency? Is there a preference there or 
does it just matter somebody do it?
    Mr. Braun. I agree with Mr. Selee that we most definitely 
need to continue to follow the cash. The problem, and we may 
not differ because we whispered back and forth a few minutes 
ago and I think I may have turned Mr. Selee around. I'm not 
sure.
    But here is what interests me or what concerns me about 
putting one agency in charge of conducting kind of the 
financial investigative aspect of global drug trafficking. We 
would never think of separating the FBI's global war on 
terrorism responsibility. We would never think for a minute of 
separating the financial aspect and taking that away from the 
FBI and having them only focus on terrorism. So why in God's 
name would we consider doing that with respect to global drug 
trafficking?
    Mr. Tierney. I guess I was misreading it there, because I 
didn't read it as a recommendation that it be separated and 
given to one but only that one be put in charge of coordinating 
it.
    Mr. Braun. Oh, OK.
    Mr. Tierney. Mr. Selee, did I read it wrong?
    Dr. Selee. No, no that was the point. And I think it is 
more a question of coordination. I mean, clearly DEA is the 
lead in most things that involve drug trafficking other than 
when you get into money laundering where Treasury gets highly 
involved.
    But the question is more of coordination. And this is the 
kind of thing that lends itself very well, I think, to, first 
of all, incentives. I mean, to what extent is the 
administration concerned about this as a key element in sending 
that message to key agencies.
    But second, what are the interagency mechanisms that allow 
intelligence to be shared? CBP knows a piece of this. I mean, 
there clearly is a border, as Mr. Jonathan Paton has pointed 
out, there clearly is a question of border security here. CBP 
clearly plays a role there. ICE plays a role in this as well. 
DEA is perhaps the lead. FBI quite often knows pieces of this 
as well. Part of the question is how do we get these agencies 
talking to each other about this.
    Mr. Tierney. Right, and who would you think, what agency do 
you think would be the appropriate one to take the lead on 
that?
    Dr. Selee. I think it is a good question to ask the 
administration. My sense is that DEA is the lead on this, de 
facto, and they probably should keep that. But I think that is 
a good question to ask the administration.
    Mr. Tierney. My time is expired. I yield 5 minutes to Mr. 
Flake.
    Mr. Flake. I thank the gentlemen; I thank the witnesses.
    Mr. Selee, you mentioned three things: consumption of 
drugs, flow of money, and limit weapons coming into the United 
States to be exported to Mexico. You mentioned them one, two, 
three. Is that the order of importance you think they are in 
terms combating what we are seeing there? Would you rank them 
for me, for us?
    Dr. Selee. Congressman, I would actually, I would 
personally rank them that way. I am not sure if other 
colleagues who participated in our report would have the same 
ranking. And let me tell you why I would rank them that way.
    Consumption, from what we know from academic studies, 
reducing consumption is probably the most cost-effective way of 
reducing the overall market, disrupting the activities of drug 
cartels. We have the greatest bang for the buck. So I would 
start there as a key area. That said, nothing that we do, 
whether it is prevention programs or treatment programs, is 
going to reduce the market more than a percentage. I have heard 
people talk about 10 percent; I have heard 25 percent. But 
clearly it is not a solution in and of itself.
    Second, I think interrupting the money flow is perhaps the 
most global, we are talking about cartels. Let us just put this 
in perspective--$15 billion to $25 billion. And no one knows 
the exact amount. But these are numbers we put together sort of 
talking to a number of agencies, $10 billion to $25 billion. 
The Mexican Government's budget for security, for organized 
crime, is about $3.9 billion a year. About $7 billion if you 
look at the global budget for law enforcement at the Federal 
level in Mexico. This is a huge number.
    So disrupting that, and again, you are never going to 
disrupt more than a percentage of the money flow. But beginning 
to disrupt that is a key element of at least leveling the 
playing field here.
    And the third is the arms. And I agree there is a border, 
Mexico can do much more on their side with the arms. But in the 
same way that we have always expected Mexico to step up with 
drug traffickers that are trying to get drugs into this country 
on their side of the border, I think they have a legitimate 
right to look at us and say, you know, we should be doing our 
part on our side to make sure those arms are not getting 
exported. Clearly they have a responsibility at the border but 
we should do our part as well. And we don't want them turning 
around and saying, hey, the drugs are your problem. You are 
letting them, they are getting by the border.
    Mr. Flake. Thank you. Mr. Paton, I appreciate your 
testimony. What I mentioned in my opening statement was that 
there are a lot of other things that we need to consider. And 
you raised some of those in terms of numbers or the burdens 
that are already there in terms of what our U.S. attorneys have 
to deal with. I will ask you kind of the same question that I 
asked Mr. Selee. Those items that you listed--ensuring that we 
enforce our laws in terms of those entering Mexico, burdens on 
U.S. attorneys, and the other issues--how would you rank them 
for us? I mean, it is our responsibility to allocate money and 
resources because, as we all know and Arizona is painfully 
aware, the border, most of the issues dealing with the border 
are Federal issues. And so what can we do here? What is most 
important in your view?
    Mr. Paton. Mr. Chairman, Congressman Flake, I think that 
really the biggest thing that we can do as I said before, my 
No. 1 ranking, I guess, would be that we should focus on the 
infrastructure that goes along with the border interdictions. 
And I mean the prosecutors, the judges, the defense attorneys, 
that entire infrastructure that was left out when we added more 
Border Patrol agents. We have existing laws. We have straw 
purchase laws. It is illegal to export guns that are illegal in 
Mexico into Mexico. We have those things put in place. We 
simply don't have the ability to prosecute and jail those 
offenders because of all these other things. That would be the 
first thing.
    I would also want to say that locally, because we have been 
waiting for the Federal Government to act, we have been trying 
to take matters into our own hands. And we have found that the 
Department of Public Safety works quite well, our State level 
police work quite well with ATF and other agencies. And the 
more that we empower them to do some of these things, that is 
another set of resources that we can utilize that won't cost 
the Federal Government really that much more. We are trying to 
do that already.
    In our Senate Judiciary Committee, I am working with 
different groups to try to help enforce some of these existing 
gun laws. And I think that, first of all, is something we need 
to take care of before we do anything else.
    Mr. Flake. Thank you. Mr. Diaz, you talked about the 
importance of new gun laws, I guess, or new classes of weapons 
to make illegal. What about the argument that Mr. Paton puts 
forward that we have difficulty with the resources and the 
funding and everything to enforce current laws on the books? 
Wouldn't it be more difficult to outlaw another class of 
weapons? Would that help at all?
    Mr. Diaz. Thank you for the question, Mr. Flake.
    First, with respect to enforcing existing laws, I think the 
record demonstrates that is not enough. We are talking about a 
comprehensive solution. For example, the straw purchaser law, 
the Federal law--and I know Mr. Paton believes or at least has 
said publicly that maybe there should be also a State law which 
is a new gun law in the State itself--the straw purchaser law 
even in its best circumstances--if we said everybody obeyed the 
straw purchaser law just as if we would hope everybody would 
obey the laws against consuming illegal drugs, let us assume 
that happened--that still leaves a very broad range of venues 
where firearms can be legally purchased without even worrying 
about straw purchasing.
    That is the 40 percent, the informal market I talked about. 
That is the gun show problem. That is the sales across the back 
fence problem. That is the Internet advertising problem. And 
the Internet problem, some would say, well, in the case of an 
Internet sale you have to go through a dealer. That is not 
necessarily true. In a State as big as Texas, for example, you 
could do an in-trust State sale consummated through the 
Internet. So I think, yes, we do need a comprehensive approach.
    The point I am trying to make today is that there is a 
reason drug lords and terrorists want the specific kinds of 
firearms that the ATF trace data says they want. There is a 
reason they want them. The first reason is they do the job they 
want, which is killing police officers and killing each other, 
to a large extent.
    The second is they are readily available in the United 
States. These semi-automatic assault weapons that come from 
Romania, the WASRs and so forth, the SKSs, are cheap guns. It 
is ideal for their traffic.
    So if you are asking me, would I like to see those guns 
outlawed, a new class of weapons outlawed, you bet I would. But 
what I am suggesting today is there is a way to stop that 
traffic. The President could do it, the attorney general could 
do it, by asking ATF to do what it has done in the past.
    Mr. Flake. Thank you.
    Mr. Tierney. Mr. Lynch, you are recognized for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. I appreciate you and 
the ranking member focusing on this issue. It is one that has 
not in recent times received proper attention. And I want to 
thank the panelists as well. You have a great group here.
    I have been Googling phrases like, ``mayor assassinated in 
Mexico'' or ``police chief assassinated in Mexico.'' The 
lawlessness in Mexico, and I realize this hearing is to look at 
our side if the border as well, I can't help but compare--I 
have spent a fair amount of time in Iraq and Afghanistan, but 
especially Iraq--the lawlessness and chaos that was there from 
2003 and coming forward, there are some definite parallels 
here. And I know Mr. Braun you have had experience there as 
well.
    It would seem that at least as a threshold matter we need 
to have a situation in Mexico where the rule of law, their 
legal system allows the local population to have some 
confidence that with the proper application of the law the bad 
guys can be taken off the street. And I am not so sure, you 
know, just seeing the history here, that exists.
    And it would seem that at some point we have to have a buy-
in from the local communities there--the towns, villages, and 
cities--that they step up and cooperate like the population did 
in Iraq in taking the bad guys off the street. They need to 
have that confidence. Do we have that on the Mexican side of 
the border in any large degree?
    Mr. Braun. Right now, I don't believe we do have it. And I 
don't believe there is a community in Mexico right now where 
the citizens have confidence in their law enforcement and other 
security personnel. I think that one of the most important 
things that needs to be done with respect to the Merida 
Initiative, and the way that I believe a great deal of that 
money should be spent, is to focus on building strong, lasting 
professional judicial institutions, fully vetted. In a place 
like Mexico where corruption has permeated virtually every 
level of government, it is the only way that this can be turned 
around.
    So by fully vetted judicial paradigms, what I am talking 
about is, look, you can have the best trained and best vetted 
cops that money can buy. But as part of the judicial process, 
if one or more prosecutors are corrupt, it all falls apart like 
a house of cards. And if you have vetted and trained well your 
prosecutors but you have corrupt judges, to take it another 
step, corrupt penal institutions, it simply won't work. So you 
literally have to start from scratch and build a fully vetted 
judicial paradigm in Mexico.
    I have talked to Attorney General Medina Mora many times 
about this. He is in full agreement. He and Genaro Garcia Luna, 
the head of public security who has the largest uniformed 
Federal law enforcement agency, they are both in full 
agreement. They have started on their agencies and their plan 
is to then take it to local and State law enforcement agencies 
after they have cleaned up, you know, after they have cleaned 
up their own houses.
    Mr. Diaz. Can I add a point of fact to that, please? There 
is existing through the State Department a very small but real 
program to develop exactly what you are talking about. And it 
is operating in Mexico. It operated in Colombia and I believe 
it actually operated in Sicily with the several different mafia 
factions. And it is specifically to build community support for 
rule of law.
    I don't want to go on with the details. But this program 
does exist. You can find it through AID; they would be happy to 
put you in contact with specific people doing it. And it may be 
an area where more support would make this program work better. 
Thank you.
    Mr. Lynch. Yeah, it must be pretty nascent. I realize my 
time has expired.
    Mr. Tierney. Thank you very much, Mr. Lynch. Mr. 
Fortenberry, you are recognized for 5 minutes.
    Mr. Fortenberry. I will yield to Mr. Mica.
    Mr. Tierney. Then he will yield back to you.
    Mr. Mica. Thank you. I appreciate your yielding, too.
    I did have the opportunity to chair from 1998 to 2000 the 
Criminal Justice Drug Policy Committee which was eliminated 
during the last Congress. Unfortunately, the other side of the 
aisle hasn't paid much attention to this issue. I think Mr. 
Kucinich was the chair of the subcommittee. I guess it was 
Domestic, it got bounced to Domestic Policy. Lack of attention 
by this committee is not acceptable. I appreciate the new Chair 
starting this. And this should only be the beginning. We need 
to haul in Homeland Security, the ICE people, the CIA, and FBI.
    One of the last appointments in this administration is a 
Drug Czar. And we need a Drug Czar appointed and confirmed. We 
need a full court press because our neighbor to the south is 
about to lose its sovereignty. When I went down there, I went 
under heavy police guard as the chairman, met in Mexico City, 
and I gave a speech to some of them. And I said you are losing 
your, you are going to lose your damned country. I used that 
expression. It was behind closed doors.
    I was briefed by the CIA; I was briefed by the FBI and 
others before I got there about the level of corruption from 
the cop on the street to the president's office. And you hit it 
on the head, Mr. Braun. The place has been corrupt and they are 
paying for it. You have to have, Mr. Diaz said, the rule of 
law.
    And we have to provide our friends to the south, our 
neighbors--we have millions of incredible Mexican Americans, I 
have some in my family--who are just disgusted with what is 
going on, and it is not just about guns, you know, and they 
have tried to do some things, but we have to provide them the 
resources to do this.
    Colombia lost control. We put Plan Colombia in and we gave 
them the resources. We worked with Pastrana. He sang Kumbaya 
and danced around. Uribe came in and was tough. They killed 
thousands just like they are killing in Mexico. But we have to 
help them regain control with a plan and a policy of that 
country. It is totally out of control. It is a slaughterhouse 
and it is on our borders and it is spilling into our cities.
    So I am hoping this President, Congress--again I applaud 
you--but I want another hearing. And I want those people in 
that are going to run these programs and a plan to help the 
Mexicans regain control of that country.
    And it is not just about guns. And I have been with the gun 
route folks. I am telling you that the world is, Mexico's 
borders are a sieve and if they don't get them from the United 
States--and it is not that we don't need enforcement and we 
shouldn't have export or transport of weapons laws--but we, you 
can't just control it on that.
    Part of it is education of people in the United States. Cut 
down the demand. The talk of legalization and the people, the 
biggest trafficking is still marijuana. Isn't that true, Mr. 
Braun?
    Mr. Braun. Yes.
    Mr. Mica. And the rest of it is transit. They don't produce 
any cocaine in Mexico that I know of. But there is an increase 
in heroin, Mexican. But that is U.S. market-based. So we have 
to have a better education program to stop the demand. 
Everybody agrees with that?
    [Witnesses respond in the affirmative.]
    Mr. Mica. Just ``yes'' for the record instead of a nod.
    Dr. Selee. Yes.
    Mr. Mica. Well, Mexico is turning into a narco-state. And 
we have to have in place zero tolerances. Let me give you an 
example about enforcement. If they don't do it in Mexico and we 
don't do it, tough enforcement of existing laws and, if we need 
it, other laws, what happens? I dare you to go out here to 
First and C Streets right near the Metro stop--I think it is 
First and C--and jaywalk when Officer Thompson is there.
    Have you ever seen Officer Thompson? He will write you a 
damned ticket. He will hold you accountable. So nobody when he 
is there violates the law. Rudy Giuliani, working with him, New 
York City is still a safe venue because of zero tolerance.
    So we have to do everything we can to work with the Mexican 
officials. They have taken some steps and I applaud them. They 
put the military there. And these pigs that would slaughter the 
military, I don't know if you read this story about a month 
ago--they killed seven of the military and then, they didn't 
use a gun, they used a knife to decapitate them, and then they 
put their heads in plastic bags, clear plastic bags, and dumped 
them in a mall to set an example for others who cooperated what 
they would do--these are the lowest scum of the Earth. And they 
are killing, they are letting the drugs that come in and kill 
our people on our streets. So we have to have a plan.
    Mr. Chairman, I request our side will send you a letter 
this week----
    Mr. Tierney. You were late. If you had been here at the 
beginning of the hearing, you would have heard that we have 
these things already planned.
    Mr. Mica. Again, we need to bring in whoever it takes--but 
we don't have any plan--to develop a plan and to follow through 
with that plan. I haven't seen the President's budget and his 
items, but we will work with him and work with whoever. I 
appreciate you all coming in today. And I appreciate again the 
chairman beginning the highlighting of this, taking this back 
under control. I don't think I remember one single hearing on 
this issue during the last 2 years. But it is time we get 
engaged. And again I applaud you for doing that and will work 
with you. I yield back.
    Mr. Tierney. Thank you very much.
    Mr. Fortenberry, now you are recognized for 5 minutes.
    Mr. Fortenberry. Thank you, Mr. Chairman, for holding this 
hearing.
    Gentlemen, thank you for appearing today. Should National 
Guard troops be sent to the border?
    Dr. Selee. You know, I think the good thing that is 
happening right now is the cooperation between the United 
States and Mexico. We are seeing for the first time a real 
scaling up of the kind of dialog, and I think the hearing today 
is one of the examples, us talking about our responsibilities 
on our side. The Mexican Government has in a way that we have 
never seen before picked up their responsibilities and said, 
this is our issue, not because we want to stop drugs coming to 
the United States but because it is a security issue for us. 
Sending the National Guard to the border I think sends the 
wrong message to Mexico. And I think it would be seen----
    Mr. Fortenberry. You said wrong, wrong message?
    Dr. Selee. The wrong message. I think it would be seen as 
moving against the cooperative spirit that we have right now. 
It would probably reduce some of the very productive engagement 
we have.
    One of the reasons, and this goes to something that Mr. 
Braun just said, one of the reasons why you are not seeing the 
killings going on in the U.S. side of the border is that 
Mexican cartels knows that they have very little chance of 
being thrown in jail for what happens on the Mexican side. The 
long term solution to this is creating a judicial system and 
police forces, critically at a State and local level, that are 
capable of making sure that the traffickers have the same 
concerns on the Mexican side, that they are as careful as they 
are on this side about not getting on, not doing anything that 
calls the attention of the authorities.
    But in the short term, we have a government in Mexico right 
now which is trying to do the right thing, which is working 
very closely with the U.S. Government. And I would say this 
cuts across party lines in Mexico. I mean, this is something 
that Mexicans have decided is a critical issue. This is 
President Calderon but it is also a variety of parties. And 
anything that we do that is unilateral, seen as a unilateral 
step, is likely to undermine that.
    And if I could just say something on general situation in 
Mexico--I spent a lot of time in Mexico--it is worth saying the 
country is not exactly in flames. I mean, there are three 
cities that really are in a very serious problem. Most places 
you are not worried about being killed when you walk out on the 
street. That said, you are worried about the fact that if 
something happens to you, you don't necessarily have police 
forces or a judicial system that is going to back you up, that 
you trust.
    And that for a democracy--and Mexico has, you know, 9 years 
as a democracy--is a critical question. And the question of 
whether this succeeds is a question of whether you build those 
institutions. The Mexican Government is trying to do it. There 
is judicial reform. There is police reform. There are some real 
efforts here. But it is the kind of thing we need to get 
involved in and do what we can do on our side as well.
    Mr. Paton. Mr. Chairman, Congressman, I would say yes and 
no. We have had the National Guard on our border in Arizona. We 
had some Guard units from Utah and elsewhere that were there. 
They serve in an auxiliary capacity; they assisted the Border 
Patrol. And I think they were very effective in doing what they 
did. I don't think it is a good idea to have U.S. soldiers 
patrolling with M-16s and the rest. We need them elsewhere. And 
as a soldier myself in the Army Reserve, I can tell you that 
many of those units are already deployed somewhere else. But we 
can certainly use them in an auxiliary capacity and we have 
done that effectively. And I think that it has affected our 
State dramatically when those Guard troops were pulled.
    Mr. Fortenberry. Maybe the question is a little too broad. 
And going back to what you said, Mr. Selee, and combined with 
what you are saying, Senator, there are three significant areas 
of difficulty as you pointed out. Backup capacity until some of 
the ideas that you are discussing today, using the National 
Guard as backup capacity until sufficient local resources, 
national resources are augmented to bring the trouble spots 
under control, is that, perhaps, a better way to think through 
preventing an emergency-type crisis that would spill over into 
the United States?
    Mr. Paton. Mr. Chairman, Congressman, I would say that it 
would be effective to have them in an auxiliary capacity. But 
the other problem, like I have said before, is they are going 
to be catching people as they go through. They are going to be 
stopping shipments of drugs and the like as they go through. 
The problem is, once again, that infrastructure that goes along 
with it of prosecuting, convicting, jailing the offenders.
    Mr. Fortenberry. All right, well, let us move to that 
question because that is the second part of my question. What 
are the common sense, simple initiatives--and, Mr. Braun, you 
can answer both of these if you like--that can be implemented 
quickly and would have the most impact that are not currently 
being implemented? You made reference to one, how we don't scan 
license plates to see if they are stolen vehicles or not. Now, 
that would be, in my mind, at least a very simple thing to 
implement quickly and be a part of a broader book, one chapter 
of a broad book of solutions.
    Mr. Paton. Mr. Chairman, Congressman, I would say that in 
that process, there has to be better coordination between those 
license plate readers and Customs officials at the border and 
the Border Patrol officials. A lot of times, they are going 
down I-19, they scan them but they don't have enough lead time 
to let them know to catch the bad guys as they go through. I 
think, though, that is the right idea.
    And I think if was tried massively, the whole point is that 
we should be paying as much attention to people leaving the 
country as we are paying attention to people entering the 
country. Because they are largely the same people. And we, when 
we interdict them leaving, we are also finding that they have, 
they pop up on our system for drug smuggling, other offenses, 
murders, rapes, etc. We can catch them then. And a lot of them 
are skips. They have committed crimes in the United States, and 
they are fleeing the country to evade crime or prosecution.
    Mr. Fortenberry. Mr. Chairman, has my time expired?
    Mr. Tierney. It has expired, but we are going to do another 
round.
    Mr. Fortenberry. Thank you.
    Mr. Tierney. And it won't be very long before we get to you 
again.
    Mr. Burton, you are recognized for 5 minutes.
    Mr. Burton. Thank you, Mr. Chairman. I don't know how many 
hearings I have been to in my political career about this 
issue. I would imagine 100, 150.
    Mr. Tierney. And yet you come again. This is wonderful. 
[Laughter.]
    Mr. Burton. Yes, I come again because, you know, because I 
really would like to find an answer. And when you take an 18 or 
19 year old kid and he is driving a brand new Corvette with a 
gold dash and a wad of money in his hands that is maybe $10,000 
or $12,000 in a city in the United States and somebody arrests 
him or knocks him off and there are 10 guys waiting to take his 
place, it makes you wonder about how you deal with that 
problem. I think, and I hope, Mr. Chairman, we will go down to 
the Mexican border. I would love for you to have a hearing down 
there; I would love to go with you down there and check some of 
the things that are going on first hand.
    But let me just ask a couple questions. Senator, you were 
talking about the turnstile down there, how people could just 
walk across the border coming from the United States. They 
could smuggle stuff in, which is more difficult, and then they 
take the money and just walk across the border. So it is very 
easy for them to continue their business activities. Do you 
think that it would be wise for the President to say, OK, we 
are going to send the National Guard and/or the military? He 
could suspend, if he wanted to, to send the military down 
there. I know that is a dangerous thing and most Americans 
don't want that to happen. But do you think that in certain 
parts of the Mexican-American border we ought to do that?
    Mr. Paton. Mr. Chairman, Congressman, I would say that to 
some extent, but as I said before, I think in more of an 
auxiliary capacity to assist the Border Patrol that is already 
kind of familiar with the area and the terrain. I think that 
would keep our soldiers from getting into bad situations, that 
they might do things like they would do in Iraq but they might 
not be able to do here in the United States. I think that 
furthering, encouraging Mexico to do something about their 
border security issue would assist us dramatically. Because 
like I said, our people smuggling and drug smuggling problems 
are their gun smuggling problem.
    Mr. Burton. Let me just say, Mr. Chairman, over 70 percent 
of the people in prison in the United States, according to law 
enforcement officials, are there for drug related crimes. It is 
costing $35,000, $40,000, $50,000 a year to keep each one of 
those people incarcerated. It is absolutely breaking many 
States because there are so many people and they can't keep 
track of them all, can't keep them incarcerated. They are 
letting them out because they are overcrowded. And it is all 
drug-related crime.
    And I would just submit to you, I think drugs are the 
scourge of the Earth. I think that anybody that deals in drugs 
ought to be put in jail permanently or killed. That's how bad I 
think drugs are. But as long as you can make the exorbitant 
amounts of profit, you are going to be able to bribe police, 
you are going to be able to bribe the public officials. You are 
going to be able to do all kinds of things. And unless the 
United States and Mexico and other countries are willing to 
make a complete commitment like they have in some other 
countries in the world and put these people away permanently, 
we are never going to solve the problem.
    I have been in government at the State and local level 
since 1967. And as I said before, I have been to over 100 of 
these hearings. And every time, I hear the same thing, you 
know, what we have to do. We have to put more money into law 
enforcement. We have to have more help from our neighbors. We 
have to police the Mexican-American border. And nothing ever 
changes except it gets worse.
    And so we in the United States have to come up with a plan 
that is so onerous that we scare the hell out of the drug 
dealers. And if we are not willing to do that, we are never 
going to solve the problem. And I am talking about if they are 
arrested once, we give them a penalty. And if they are arrested 
twice, they spend the rest of their life in the slammer. And if 
they do something that involves somebody's life, we kill them. 
Now if we are not willing to do that, I my opinion, we are 
never going to solve this problem and it is going to continue 
to get worse. And until we really realize that, until we really 
come to grips with this, the problem is just going to get worse 
and worse and worse.
    And any time we have a hearing, Mr. Chairman, and we listen 
to our witnesses, I have had--when I was chairman of this 
committee--I had the highest law enforcement people in the 
United States before this committee and asked them a number of 
questions, one of which was this: If you took the profitability 
out of drugs, what would happen? And they said, well, they 
wouldn't sell them. They said, you are not talking about 
legalizing them, are you? I said, no, of course not. I want 
anybody dealing with drugs to be punished to the full extent of 
the law and even more so.
    But the point is as long as you can take something that 
costs $100 and sell it for $10,000, you have a big problem 
because there are more and more people that are going to jump 
into it and it is very difficult to get rid of them. And so I 
would just like to say that we in the United States have to 
make a complete commitment to dealing with the drug problem, 
and I mean severe commitment: putting people away, giving them 
the death penalty, life imprisonment after a second offense not 
a third offense. And until we are willing to do that, in my 
opinion, we are never going to solve the problem.
    And I hate to get emotional about this, Mr. Chairman, but 
when I see people I know and their kids dying because of drugs 
and going to jail because of drugs because somebody got them 
into it, it becomes a personal thing. And we really have to 
make a very committed effort to deal with the problem. And just 
doing what we are doing right now will never solve it, in my 
opinion. But I do hope we hold, have hearings down on the 
border.
    Mr. Tierney. Thank you. We will. And, you know, I am going 
to ask a question that emanated from reading the Economist this 
week. I don't know if people read it or not, about taking the 
profit out of it. And if you are still here, I would love to 
get your reaction to that.
    But at this point let me say, you know, it is sort of a red 
herring here. Whenever we try to narrow down and focus on just 
a couple of issues--this one being the money that is being 
brought over, hard cash, the idea of maybe trying to lessen 
demand through education or whatever, or even deal with some of 
the high powered weapons that are really giving them the power 
to force corruption on people or to scare them into it--some 
people want to say, oh geez, like we are just focusing just on 
that and there is a bigger problem. We understand there is a 
bigger problem. There are other committees dealing with other 
parts of it. And we will deal with other parts of it. But we 
need a comprehensive approach. And the things we are talking 
about today, I think, are significant. I guess you do, too, or 
you wouldn't be here talking about them. But I don't think we 
just dismiss it by saying oh, it isn't guns or it isn't money 
or it isn't lessening demand. It is those things as well as 
addressing the corruption, as well as the rule of law 
questions, and the infrastructure that Senator Paton I think 
rightfully brings up here. And they are some things I hope our 
Judiciary and Appropriations Committees listen to, and we will 
share that with them. It is also controlling the border and 
enforcing existing law and also interdicting trans-shipments 
and things of that nature. But it also is the things we are 
talking about today, including, you know, the high powered 
weapons that are being used. The intimidation is a big factor 
in getting the corruption. Would you agree, Mr. Braun?
    [Witness responds in the affirmative.]
    Mr. Tierney. And several of you have served over in Iraq or 
Afghanistan. This is what you get to go over there and fight 
terrorism, the extremists and things of that nature. This is 
what you get. I don't know the justification for having a 
civilian arms market selling to civilians this kind of weaponry 
and that kind of a gun. This isn't for, you know, for civilians 
to fight a war. This is, what, for hunting or for sport? Mr. 
Diaz, Mr. Paton, I mean, maybe Mr. Paton you want to start 
because the first thing you were talking about was, oh, we 
don't need more laws, we don't need to control. Why don't we 
need to keep this from the civilian market?
    Mr. Paton. Mr. Chairman, in answer to that question, I 
guess I would ask the same question about grenades and M-16s 
and AK-47 and other things that are already illegal----
    Mr. Tierney. As would I. Feel free to answer on.
    Mr. Paton. And they are still, Mr. Chairman, they are still 
being sold and bought in Mexico. Mexico has all of these laws 
that have been talked about; they have done them no good. But 
they have 15 years----
    Mr. Tierney. That is because 90 percent of them are coming 
from this country.
    Mr. Paton. Mr. Chairman, Mexico has a 15 year sentence for 
possession of some of these weapons and they have not been able 
to stop them. And I don't understand how we can stop them as 
well.
    Mr. Tierney. But we have talked about the problems that 
they are having with their law enforcement. We all admit that 
they need to have enhanced law enforcement, that they have 
trouble with the judiciary system, trouble with corruption, 
trouble with all of that. We are talking about this country.
    Why is it that it is so easy for them to come to this 
country and buy something of this size and bring it back over 
there? Mr. Diaz, why don't you give it a shot?
    Mr. Diaz. I think it is an ideal subject to talk about this 
comprehensive problem. Mr. Paton brought up several times the 
question of what we would call military armament--stuff that is 
already illegal not only in Mexico but in the United States--
fully automatic machine guns, hand grenades, rocket launchers. 
Those things are indeed showing up in Mexico. There was a big 
raid in Raynosa back in, I guess, last November and yeah, there 
were grenade launchers, LAW rocket launchers, 278 grenades.
    But here is where the integration comes to this: Seven 
Barrett .50 caliber sniper rifles--fully legal in the United 
States--the Barrett sniper rifle, the gun that fired that kind 
of ammunition--and the one on display out here is simply a 
knock off; it is an AR-50; people said, oh, Ronnie Barrett has 
a great idea here, let us make our own--that is a civilian 
weapon. It is very attractive to the gun runners. The so-called 
mata policia, the Hearst-style handgun also showed up in this 
raid. So the point is they want both. They want the military 
weaponry and they want the civilian weaponry.
    Now what ties them together? I would make the argument that 
what allows criminals to exercise force, and here I am talking 
about the gang problem in the United States, is firearms. 
Whether it is a running gun battle that went for two blocks in 
the city of Los Angeles with a drug gang, guns give the power 
of force to these criminal organizations. Now we know that, 
from reports published by the National Gang Intelligence 
Center, that one source of these military-style weapons that 
are showing up in illegal traffic are gang members in the 
military.
    My point is that this is all a related problem. I 
understand it is not only firearms, but firearms are the force 
leverage that we talk about. They make gangs, the street gangs 
like MS-13--Mara Salvatrucha--and 18th Street that are heavily 
integrated into these drug organizations, they give them the 
power to control neighborhoods in the United States. They give 
them the power to control corridors. They give them the power 
to be the foot soldiers for these people. So it is an 
integrated problem. It is not just military weaponry or 
civilian weaponry.
    These .50 caliber rifles that do the job, in my opinion, 
they should not be available for unfettered sale to civilians. 
Now, what the Violence Policy Center has recommended is let us 
treat them as the weapons of war that they are. Let us bring 
them under an existing law, which is called the National 
Firearms Act, under which machine guns, fully automatic 
weapons, hand grenades, rocket launchers, and other weapons of 
war are regulated. It is a stricter regimen. They are harder to 
buy.
    It took me about 6 hours to legally buy that gun and 
register it in the District of Columbia after I found it on the 
Internet to make the point that in the Nation's Capital, where 
there are so many high profile targets, it could legally be 
purchased. Not only could that gun be legally purchased, but 
armor-piercing and incendiary ammunition for that gun could 
legally be purchased and shipped through ordinary parcel post. 
Now the law in the District of Colombia has been changed and 
that gun has about a 3-year life span before it has to be 
gotten rid of.
    But the point is some civilian military-style weaponry, 
which has become the focus of the American civilian gun market, 
now is every bit as deadly, every bit as desirable, every bit 
as power-enhancing as the military stuff. And it is a lot 
easier to get. Why wouldn't you come to the United States and 
go to a gun show and buy one of these? You can go to any gun 
show in America, I guarantee you, and see something like this 
on the table. And probably not being sold by a dealer, which 
means you don't have to worry about the so-called straw buyer, 
you don't have to worry about the background check. You walk 
out in the parking lot and say I like that, I want five more of 
them.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Diaz. Mr. Flake.
    Mr. Flake. Thank you. Mr. Selee, I am sorry, Mr. Braun, you 
mentioned that the Mexican Government can win this war on the 
cartels. What kind of timeframe are we looking at here? You 
mentioned that it is kind of a perfect storm now with 
everything going on that is causing the violence.
    If the Calderon government had just said we are going to 
take the position that the last government did and not confront 
these cartels, would we be seeing this level of violence? How 
much is this a result of the stepped up enforcement actions on 
the part of the Mexican Government? And then, as far as a 
timeframe when do you think this can be won? Or is it going to 
require more cooperation from us like we have in Colombia?
    Mr. Braun. Congressman, look, it is going to take a lot 
more cooperation from us and help in the way of both funding 
and expert advice, guidance, mentoring, and that kind of thing 
not only to Mexican law enforcement personnel but their 
military forces as well. You know, I wish I could answer the 
first question as to when is this going to all end. If I could 
do that, our newly formed company could probably go from the 
red into the black very quickly. But I honestly believe that it 
is going to get worse before it gets better, just as it did in 
Colombia. But I believe wholeheartedly that Mexico is already 
beginning to turn the tide. But, you know, they have another 
probably year and a half, 2 years minimum that there is going 
to be a lot of conflict going on. I don't know if it is going 
to be as bad as it currently is, but there is a lot to unfold 
yet.
    With that said, the second part of your question--had this 
gone unchecked--I am telling you based on what I know and the 
high level folks that I have talked to from Mexico, President 
Calderon, after being advised by his security advisors and 
others, came to the same decision that a lot of other high 
level folks in Mexico did. If they didn't take this on, Mexico 
was going to devolve into a narco-state before the next decade. 
And General McCaffrey's report recently on his study came to 
that same conclusion.
    So, you know, as hard as this is to grasp, as hard as it is 
to stomach, and as hard as it is for me to say, I believe what 
we are seeing here with all of this carnage is really a product 
of the success of the strategy. The cartels have never been 
pressed and never been pressured like they have been over the 
past 2 years. And they will ultimately fold if we help our 
Mexican counterparts. If we don't help them, there is a chance 
they could lose this. And if they lose it, it is going to, you 
know, our mistake will cut deep into both sides of the border, 
into our national security, into our economies, into our 
cultures.
    Mr. Flake. Mr. Paton, I was interested in your discussion 
of going down to Mexico and looking at some of these 
cooperative agreements that we have there. Is it your view that 
the Mexican Government is anxious to cooperate with us and 
anxious to welcome our assistance in these areas? A lot of 
people are under the mis-impression that we give foreign aid to 
Mexico. Our aid to Mexico is in the form of drug interdiction 
and cooperation and other things. Is this working? Have they 
been cooperative enough with us in that regard?
    Mr. Paton. Mr. Chairman, Congressman Flake, my visit with 
the Mexican officials--and we are also trying to put on our own 
field hearing of our Judiciary Committee, which has never been 
tried before, but we want to actually hold a committee hearing 
in Nogales, Sonora on this very issue--they are very interested 
in working with us. I think they have been extremely courageous 
to stand up and fight the cartels as they have. Some of them 
are obviously suffering from corruption and the problems that 
go on there.
    But I think that rather than just looking at it as foreign 
aid, I would say that whatever agreements we can use so that we 
can train them in our own evidence collection techniques and 
the rest will benefit us in intelligence gathering in the 
United States. Much the same way, when I served in Iraq, we 
worked with the Iraqi military and the Iraqi police, we gleaned 
that intelligence that we were able to use in our own capacity. 
We could do that in Mexico. So it would actually benefit us in 
the long run rather than just benefit them.
    Mr. Flake. Thank you.
    Mr. Tierney. Thank you. It is too bad that Mr. Mica had to 
leave because somebody just handed me a report. He was asking 
about the Obama administration's approach. Apparently, there 
was an article in today's paper where he was quoted as saying 
he expects ``to have a comprehensive approach to dealing with 
issues of border security that will involve supporting Calderon 
and his efforts in a partnership, also making sure we are 
dealing with the flow of drug money and guns south, because it 
is really a two-way situation there.'' So, we will certainly 
explore that more when we have our own hearings on that. But 
that is an indication of the direction.
    Let me just--that article that was in the Economist that I 
referenced in my opening remarks sort of goes beyond where Mr. 
Burton was and I want to bring it up a little bit--I am going 
to describe, give you a little book report on the premise and 
just get reactions on this. The premise makes much to do about 
the fact that this is such a lucrative, illegal industry for 
people, that there are $322 billion a year and that obviously 
people will fight to the death to protect that kind of profit.
    So the article says first that since the first 
international effort to ban trade in narcotic drugs, which was 
in 1909, the article says the effort has failed. It recounts 
the 1998 U.N. promise of a ``drug-free world'' or the promise 
of ``eliminating or significantly reducing the production'' by 
2008, that is the production of opium, cocaine, and cannabis.
    And it says that has failed. It says even if the claim that 
close to half of all cocaine produced had been seized, the 
street price in the United States does not seem to have risen. 
It claims that the market is stabilized, but it means that more 
than 200 million people, 5 percent of the world population, 
still take illegal drugs. That is about the same proportion as 
took illegal drugs a decade ago. It says the United States 
spends $40 billion a year trying to eliminate drugs. It says 
the United States arrests 1.5 million people per year in drug 
related offenses and jails half a million of them.
    The Economist claims that the struggle has been 
``illiberal''--how unusual for the Economist--``murderous, and 
pointless.'' It says the prohibition strengthens the efforts of 
warlords. It said the street price is more involved with the 
risk of getting drugs into Europe and the United States and 
that even if the source is disrupted, business adapts to a new 
location.
    And then it talks about Afghanistan being a failed state 
and drugs moving from there. I guess it references South 
America where it might go from Peru to Bolivia to Colombia. 
Wherever you push it at one point, it goes to another. And 
their fear is, of course, that the drug gangs will team up with 
the terrorists and the money will get together and be a 
problem. It says $320 billion a year in the illegal drug 
industry results in weapons, terror, and corruption.
    And then it talks about five different things: shifting the 
focus to prevention and treatment; maintaining an effort to 
interdict and go after traffickers; banning the sale to minors; 
decriminalizing, regulating, and taxing to take the profit out 
of the illegal industry; and then using those revenues and 
savings to guarantee treatment. Can I just have the reaction 
from left to right of folks there? Dr. Selee.
    Dr. Selee. Well, I think they have hit some of the major 
points. There is de facto a bit of decriminalization going on 
in this country in a number of States, actually. And, in fact, 
the Economist article cites this. A number of States really 
don't enforce particularly small time use of some narcotics. I 
think it is worth studying and seeing what the effect of that 
is on the overall market, if that is being successful.
    I don't think there is a serious debate in this country 
right now on legalization. We could debate philosophically 
whether we think there should be or not. But we do have some 
experience with decriminalization, just simply states that have 
decided, and in fact, Seattle--where our new director-designate 
of the ONDCP is coming from--is one of the areas that has tried 
to decriminalize some small time use. It is worth studying and 
seeing whether that is effective. I would certainly say the 
other elements, investing in treatment and so on, these are the 
ways to go. Investing in treatment, investing in enforcing 
where the harm is greatest, that is the way to go.
    And if I could, Mr. Chairman, just say something very 
quickly on a question you raised earlier and something about 
President Obama's statement yesterday. I think one of the key 
questions on coordination on this, not on the money laundering 
piece but on the broader question with Mexico, is this may be 
the kind of thing where the NSC is particularly useful at 
taking a leadership role and bringing together domestic policy 
and foreign policy networks in the government. This may be the 
kind of issue which is high enough level that you can only 
begin to get the kind of comprehensive approach you are talking 
about and that President Obama was talking about if there is 
leadership from the White House saying, let us pull together 
Homeland Security, let us pull together Justice Department, 
State Department. Everyone has a piece of this larger--Defense 
Department--there are pieces of this that everyone is doing and 
doing well. But unless we do it together in a more coordinated 
way, I don't think we get to the right solution we want.
    Mr. Tierney. Thank you, Mr. Selee. Mr. Braun.
    Mr. Braun. Thank you, Mr. Chairman. Listen, with respect to 
just legalization, it is the old saying: We are doomed to 
repeat history if we don't know it, if we are not aware of it. 
The worst period in our Nation's history with respect to drug 
abuse was that 30 to 40 year period after our Civil War--the 
``Soldier's Disease.'' You could walk into any drug store in 
our country and you could buy cocaine, morphine, heroin, or 
opium off the shelf because it was unregulated.
    The hue and cry went out to your predecessors back in those 
days that the Federal Government had to step in and do 
something about it and regulate this stuff and somehow get some 
kind of a control on it. Because it was ripping apart the 
fabric of our country, one family after another. There has not 
been one country anywhere in the world that has decriminalized 
drugs--even marijuana--that didn't eventually recriminalize 
drugs because workplace incidents of injury skyrocketed.
    Incidents of drugged driving and highway accidents and 
deaths skyrocketed. School equivalency and efficiency tests 
plummeted. I mean, I could go on and on. There is plenty of 
history that clearly shows legalization will not work. You 
can't tell that I am passionate about this.
    Mr. Tierney. I trust you will be sending a letter to the 
Economist. [Laughter.]
    Mr. Braun. Well, going back to the Economist--just one 
other piece--the evidence is in. We are experiencing, I think 
we are now into just beyond the 2-year mark of significant 
continued increases in price of both cocaine and 
methamphetamine, they are still conducting studies on the 
heroin now in our country, and continued, significant decreases 
in purity. A lot of that has to do with President Calderon and 
what is going on in Mexico. A lot of it has to do with what is 
happening in Colombia and what has happened in Colombia over 
the last several years. And there are some other dynamics that 
play here as well. But those are the facts. Thank you.
    Mr. Tierney. Senator, go ahead.
    Mr. Paton. Mr. Chairman, I just wanted to say in reference 
to that, in my own State, I conducted extensive hearings on 
Child Protective Services and the statistic that I was given 
from Child Protective Services was this: 95 percent of their 
removals for children who were abused or neglected by their 
parents were methamphetamine-related. It is not a victimless 
crime.
    And the bottom line is if they decriminalize that, you are 
going to see more child abuse; you are going to see more 
problems with those children. Six children in my district in a 
1-year period of time were killed by their parents. All six 
cases had one thing in common--methamphetamines. And in one of 
the cases, there was a little girl, her body was found in a 
storage facility in Tucson. Her brother, they couldn't find 
that body.
    And the accused said in the interrogation, if you give me 
meth, I will tell you where I put my son. That is the effect 
the drugs are having. That isn't the illegal buying or selling. 
That is just the using, the effect that it has had in my 
district.
    And I can tell you that we have a methamphetamine epidemic. 
It used to be made in the United States, in Arizona. Now it is 
being made in Mexico. And those precursor chemicals are being 
shipped from China and elsewhere into Mexico and they are 
flooding our State. And I can tell you that it is killing 
children in my own district.
    Mr. Tierney. Thank you, Senator. Mr. Diaz.
    Mr. Diaz. Thank you, Mr. Chairman. The thing I find most 
encouraging about this hearing is that, as Mr. Flake said, it 
is opening a broad discussion of ideas. There is a whole 
spectrum of things you could talk about with drugs. Drug policy 
has been sort of the third rail of what elected people all over 
the country are wanting to talk about.
    I think it is encouraging to see that might be a subject of 
discussion. It put me personally in mind of a man named Herman 
Kahn who wrote a book called ``On Thermonuclear War.'' He is a 
famous nuclear strategist and he wrote about something that was 
called the white slave problem in Victorian England. And 
essentially what it was, women were being kidnaped off the 
streets of London and put into the prostitution traffic, just 
as we today have sex traffic. But nobody knew about it because 
in Victorian society you couldn't talk about it.
    So he, in ``On Thermonuclear War,'' talked about 
thermonuclear war and people said that was thinking about the 
unthinkable. So he wrote his next book and titled it, 
``Thinking About the Unthinkable.'' So I think it is great that 
committees like this are willing to engage this question.
    And there is a whole spectrum. It is not just legalization. 
But I do know that drugs do drive the things that I know about. 
They drive the criminal street gangs, who are the primary 
retail distributors. So something has to give here. The second 
thing I think it is, as several of the speakers before me have 
pointed out, it is a hydraulic system. Whether it is 
enforcement, we stop the movement of drugs through Florida and 
they end up moving through Miami. The same thing with guns.
    Maybe, and I hope that Senator Paton's straw purchaser law 
will be more effective in Arizona, but we have 50 States and 
lots of other places. So it is a hydraulic system. And I like 
the fact that you are willing to look at all those integrated 
together.
    Mr. Tierney. Thank you, Mr. Diaz. Mr. Flake. Mr. 
Fortenberry.
    Mr. Flake. I yield to Mr. Fortenberry.
    Mr. Fortenberry. Thanks again, Mr. Chairman. I want to 
followup on the previous questions I had asked. Mr. Braun, you 
didn't get a chance to answer. The reason I raised the issue of 
National Guard troops to the border is that it clearly has been 
raised elsewhere and may come to dominate this discussion in 
the coming days or weeks. Again, an opinion on that, but going 
back to the second phase of the question, what are the simplest 
things that can be done first and implemented easily that will 
have maximum impact?
    We talked about this issue of--which seems to me to be 
quite simple--one of technology monitoring traffic for stolen 
vehicles going out of the country. That clearly would, at least 
in my view, it would be easy to implement. But we have talked 
about a range of things today including interdiction, law 
enforcement, increased detention capacity, border control, 
social programs, and diplomatic initiatives which have to be a 
part of this entire continuum. And I agree with that. But 
again, Mr. Burton said, I have had 150 hearings on this similar 
problem, growing perhaps in intensity. What are immediate steps 
that can be taken that perhaps are somewhat simple but can be 
leveraged for maximum impact quickly?
    Mr. Braun. Congressman Fortenberry, thanks for the 
opportunity to talk about the National Guard and our military. 
The National Guard, there is a role for the National Guard and, 
in fact, the National Guard has supported DEA for many, many 
years. They have provided us with additional intelligence 
analysts that we needed along the border. They have 
intelligence analysts assigned to the El Paso intelligence 
center, just as our Department of Defense does. They bring to 
bear some very high tech equipment like seismic technology to 
locate and identify those tunnels that pose such a real threat 
to our national security on the southwest border. So they are 
engaged and they are involved. They have been for a long time.
    I would agree with Mr. Paton, though. Having National Guard 
or our military in uniform, armed, on the front lines on our 
border, I think poses some major issues. I believe you will 
probably all recall the very tragic incident outside of El Paso 
about 10 years ago when a young Marine--who was on just simple 
observation, performing simple observation duty--confronted a 
young kid that was actually, as I recall, a goat herder and who 
was armed with a .22 rifle. And the kid pointed it in the wrong 
direction and he paid for it with his life. And that turned 
into, well, just a very tough thing for both of our countries 
to manage and deal with, both the United States and Mexico. So 
I am just saying that we have to be, you know, vary cautious 
and prudent and judicious with how we use our military folks.
    Some short term solutions, I agree with you, I think 
technology brings a lot to the table. The LPR, or the license 
plate readers, DEA has worked very closely with CBP in Texas 
and I believe also in Arizona, Mr. Paton and Mr. Flake, and 
with tremendous results. What needs to be done, I believe the 
way they work best, obviously, at the Border Patrol checkpoints 
that are 20 or 30 miles inland, before those vehicles make it 
to the POEs, they have time to flash the plate using 
technology, make the inquiry, and then determine if the vehicle 
or driver of the vehicle--not particularly the driver of the 
vehicle but the registered owner of the vehicle--might be 
suspect or has shown up suspect in some activity in the past. 
Those things on pilot programs have--I am telling you what--it 
is good stuff, good technology. And I believe we can make and 
need to make much better use of it.
    With respect to LPRs, though, I would simply say that you 
know, as we have seen so many times in the past, you have DEA 
with their interests; you have ICE with their interests; you 
have CBP with their interests. Someone needs to be placed in 
charge of this effort. If we are all out there buying these 
things, we ought to at least be buying the ones that we can 
integrate together into one system so that the information can 
then be quickly and very effectively shared. Mr. Selee and Mr. 
Paton have both brought up, you know, that point earlier. Thank 
you.
    Mr. Tierney. Thank you, Mr. Braun. Thank you, Mr. 
Fortenberry. Mr. Flake.
    Mr. Flake. I have to run to the floor, unfortunately, now 
and I think we are about to end. But I just wanted to say in 
closing that I appreciate, this has been a very illuminating 
hearing and I appreciate all of you for your testimony. And I 
will just end with one thing I started with. I hope that we 
can--and this is only a Federal issue, we have to do this in 
Arizona; we are in a bad way because of the Federal 
Government's failure to adequately secure the border--but one 
thing that would help would be to have comprehensive 
immigration reform and to have a meaningful temporary worker 
program where legal workers can come and go.
    And when we have had other versions of that--we don't want 
to recreate the baser [phonetically] program, believe me--but 
when you have a legal framework for people to come and go, then 
you can free up the resources that we desperately need to build 
the infrastructure that Senator Paton talked about to 
adequately deal with this issue.
    So I hope that we can get off the dime on a number of 
issues here at the Federal level to improve the situation. But 
this has been a very good hearing. I thank the chairman for 
calling it.
    Mr. Tierney. Thank you, Mr. Flake.
    And again, thank all of you for your contribution here 
today. I think we have an idea of some things we should pursue, 
from technology on the border to infrastructure investments 
that need to be done, toward at least addressing the idea of 
what nature of guns are going south and what we might to do 
lessen that--both in the quality and kind of guns that are 
going down as well as the numbers--and the money, and, of 
course, the usage of the consumers on this end.
    So thank every one of you for your contribution. I leave 
you only with one request that you needn't comply with because 
I don't have any right to give you homework.
    But one area that we didn't get into was precursors, 
although we mentioned it at a couple points. If any of you have 
information that you think the committee should focus on or 
have their attention drawn to about the role of precursors 
coming in, where do they come from, where do they transit on 
the way through, is there a role for the United States at all 
to be involved with trying to deal with that issue, we would 
certainly appreciate it and we will share it with the other 
Members on that. So again, thank you very much. Thank you, Mr. 
Flake.
    Meeting adjourned.
    [Whereupon, at 12:05 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
